NRC: OIG/97A-21 - Review of the Project Manager Position in the Office of Nuclear Reactor Regulation
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1998 > OIG/97A-21
OIG/97A-21 - Review of the Project Manager Position in the Office of Nuclear Reactor Regulation
July 13, 1998
MEMORANDUM TO:
L. Joseph Callan
Executive Director for Operations
FROM:
Thomas J. Barchi
Assistant Inspector General for Audits
SUBJECT:
REVIEW OF THE PROJECT MANAGER POSITION IN THE OFFICE OF NUCLEAR REACTOR
REGULATION
Attached is the Office of the Inspector General's audit report entitled "Review
of the Project Manager Position in the Office of Nuclear Reactor Regulation."
This report reflects the results of OIG's audit of the significant expansion
of duties of the Office of Nuclear Reactor Regulation (NRR) Project Managers.
On April 28, 1998, we provided a draft of this report to the Deputy Executive
Director for Regulatory Programs. On June 1, 1998, the Deputy Executive Director
for Regulatory Programs responded to our draft report and generally agreed with
the objectives of the report's recommendations. NRC staff agreed measures are
needed to correct the weaknesses we reported, and stated they plan to initiate
several actions to improve the quality of work and productivity of NRR personnel.
Given the need for and importance of improving NRR's regulatory processes, we
plan to closely monitor the agency's progress in implementing these initiatives.
Please contact me on 415-5915 if we can assist you further in this matter.
Attachment:
As stated
REPORT SYNOPSIS
INTRODUCTION
Background
FINDINGS
CONCLUSION
RECOMMENDATIONS
AGENCY COMMENTS
OBJECTIVES, SCOPE, AND METHODOLOGY
ACRONYMS
MAJOR CONTRIBUTORS TO THIS REPORT
GLOSSARY: OFFICE OF THE INSPECTOR GENERAL PRODUCTS
Investigative
Audit
Regulatory
REPORT SYNOPSIS
The U.S. Nuclear Regulatory Commission's (NRC) Office of Nuclear Reactor Regulation
(NRR) established a Headquarters-based Project Manager (PM) position to assist
in licensing and monitoring the nation's commercial nuclear power plants. The
PM role has expanded significantly into a multi-purpose position which has resulted
in PMs being responsible for a wide range of duties, such as performing licensing
actions and inspection and assessment of licensee performance. Due to the significant
expansion of duties, we reviewed the role of PMs, factors that affect their
work, and the management processes used to oversee this important agency function.
As initially established, PMs were segregated by functional areas. For example,
there were Licensing PMs, Operating Reactor PMs, and Research Reactor PMs. However,
when the need to license commercial nuclear power plants decreased, NRR shifted
its focus to the operational oversight of the plants and moved the Licensing
PM position into the same project organizations as the Operating Reactor PMs.
According to NRC's Operating Reactor Project Manager's Handbook, PMs
are responsible for approximately nine main functions, such as performing licensing
actions and activities, serving as the Headquarters contact point for licensees
and NRC Regional Office staff counterparts, coordinating preparation of safety
evaluation reports and environmental impact statements, participating in special
assignments, and coordinating and presenting information to the Commission and
other groups on specific projects and subjects.
As a result of our work, we found there is a lack of consensus between Headquarters
and Regional Office staff, as well as between individual NRR offices, regarding
management's expectations of the PM role. We analyzed information regarding
the amount of time PMs charge to various activities and found a wide variance
among PMs in time charged to activities considered most important by senior
agency managers. In addition, NRC staff, including PMs, noted they are responsible
for too many activities, which may be inhibiting their overall effectiveness.
We also found that NRC has not provided adequate management oversight to ensure
PMs are sufficiently trained to perform their jobs. For example, in 1989, NRR
established its current guidance which identified the types of training needed
by PMs to perform their various assignments, but this guidance has not been
followed. This has resulted in a disparity of training among PMs. In addition,
PMs are expected to perform certain job tasks without receiving formal training
in how to accomplish those tasks. Ineffectual training oversight, combined with
the lack of clear PM expectations and competing job demands, may prevent PMs
from achieving their maximum effectiveness.
We also examined the timeliness of processing certain types of technical reviews
and found that the primary impediment to improving the process is the recurrent
need for additional information from licensees and Regional Office staff.
Finally, NRC has recently taken steps to assess factors affecting the PM function,
but the scope and outcomes of these efforts are unclear at this time. While
the Office of the Inspector General (OIG) supports the NRC's efforts in this
regard, we recommend any initiatives be targeted to ensure the agency:
-- Re-evaluates and clearly defines PM job expectations and communicates
the expectations to Headquarters and Regional Office staff; and,
-- Ensures PMs receive the training necessary to meet these expectations.
OIG plans to monitor NRC's progress in correcting the weaknesses identified
in this important agency function.
INTRODUCTION
The U.S. Nuclear Regulatory Commission's (NRC) Office of Nuclear Reactor Regulation
(NRR) established a Headquarters-based Project Manager (PM) position to assist
in licensing and monitoring the nation's commercial nuclear power plants. The
PM role has expanded significantly into a multi-purpose position which has resulted
in PMs being responsible for a wide range of duties, such as performing licensing
actions and inspection and assessment of licensee performance. Due to the significant
expansion of duties, we reviewed the role of PMs, factors that affect their
work, and the management processes used to oversee this important agency function.
This report presents the results of our review. Appendix I contains additional
information regarding our objectives, scope, and methodology.
Background
NRR is responsible for ensuring public health and safety through licensing
and inspection activities at all commercial nuclear power reactor facilities
in the United States. The responsibility for providing overall project management
activities related to licensing and inspection of nuclear power reactors resides
within the Associate Director for Projects (ADPR) organization. (See the organization
chart attached as Appendix II.) ADPR has 11 Project Directorates associated
with NRC's four Regional Offices. The Directorates, which are headed by Project
Directors (PD), direct the activities of approximately 75 PMs. For the purposes
of this report, lead Project Managers (lead PMs) will refer to PMs who have
"dedicated" plant assignments. Each operating reactor has, in most cases, a
lead PM who is the focal point for all information related to that plant. PMs
were originally segregated by functional areas. For example, there were Licensing
PMs, Operating Reactor PMs, and Research Reactor PMs. However, when the need
to license commercial nuclear power plants decreased, NRR shifted its focus
to the operational oversight of the plants and moved the Licensing PM position
into the same project organizations as the Operating Reactor PMs.
NRC's Operating Reactor Project Manager's Handbook provides PMs guidance
and outlines approximately nine main functions required of a lead PM, such as
performing licensing actions(1) and activities,(2)
serving as the Headquarters contact point for licensees and NRC Regional Office
staff counterparts, coordinating preparation of safety evaluation reports and
environmental impact statements, participating in special assignments, and coordinating
and presenting information to the Commission and other groups on specific projects
and subjects.
In July 1997, NRR contracted for a job task and functional analysis (JTA) to
examine the tasks performed by ADPR personnel and evaluate how and by which
position, specific tasks and functions are best performed. In addition, the
JTA will identify associated training requirements. The estimated completion
date of the JTA is July 1998. As part of another internal evaluation, NRC may
perform a "top down" assessment of all the programs and activities in NRR. The
assessment would examine NRR's current programs and activities to determine
whether they achieve their desired purpose in an efficient and effective manner,
and whether they should be continued, redesigned, or sunset. The extent or actual
performance of this assessment is uncertain at this time. The findings contained
in this Office of the Inspector General (OIG) report should assist NRC management
in improving the effectiveness of the PM function, as well as for making decisions
on the scope and focus of future assessments.
FINDINGS
We found there is a lack of consensus between Headquarters and Regional Office
staff, as well as between individual NRR offices, regarding management's expectations
of the PM role and the activities PMs currently perform. The expectations vary
considerably, as do the functions agency managers consider most important for
PMs to perform. For example, 75 percent of the senior NRR managers we interviewed
believe licensing work is the PM's most valuable function, while Regional Office
officials generally said that PMs add the most value as focal points of information
regarding the status of plant activities, including licensing actions. Our analysis
confirmed this lack of role clarity. We analyzed information regarding the amount
of time PMs charge and found that PMs charge differing amounts of time to a
wide variety of activities. In addition, NRC staff, including PMs, noted they
are responsible for too many activities, which may be inhibiting their overall
effectiveness.
We also found that NRC has not provided adequate management oversight to ensure
PMs are sufficiently trained to perform their jobs. In 1989, NRR established
its current guidance which identifies the types of training needed by PMs to
perform their various assignments, but this guidance has not been followed.
This has resulted in a disparity in the knowledge, skills, and abilities among
PMs, which may also impact their effectiveness. In addition, PMs are expected
to perform certain job tasks without receiving formal training in how to accomplish
those tasks. For example, PMs are responsible for providing input to various
sections of the Systematic Assessment of Licensee Performance (SALP) reports,
including the Maintenance module, even though PMs may not be trained in maintenance
engineering skills.
We examined the processing of certain types of technical reviews and found
that the recurrent need for NRR staff to request additional information (RAI)
from licensees and Regional Office staff tends to impede the timely completion
of licensing actions. The agency might reduce lengthy processing times by focusing
on ways to reduce the quantity of RAI requests. As a result, PMs may be more
effective in completing licensing actions and activities in a timely manner,
and more responsive to licensees and Regional Office staff needs.
The role of the project manager needs better focus
The PM role has expanded significantly into a multi-purpose position which
has resulted in PMs being responsible for a wide range of activities. We examined
whether NRR management's expectations of PMs, as well as the views and expectations
of other NRC staff, are clear. Although PM expectations are defined in the NRC
Operating Reactor Project Manager's Handbook, we found that management's
expectations of PMs vary widely, and the PM role needs better focus.
Expectations are Widely Varied
In meeting with agency officials at Headquarters and two Regional Offices,
we found considerable differences regarding management's expectations of the
PM's role, including which PM functions managers consider most important. We
augmented the information gained from these interviews by analyzing data obtained
from two agency information systems.(3) That
data comprised time charged to NRR activities during fiscal year (FY) 1997 and
was restricted to lead PMs.
We found a lack of consensus between Headquarters and Regional Office staff,
as well as between individual NRR offices, regarding expectations of what the
PM role should be and the relative importance of functions currently performed
by PMs. For example, NRR senior managers agreed that the activities conducted
by PMs fit into three broad functional areas: (1) coordination or performance
of plant-related licensing actions and licensing activities, such as safety
evaluations; (2) acting as a focal point for information related to activities
for a particular plant; and (3) participation in plant safety assessments.
In general, NRR senior managers considered licensing work as the most important
PM function. In contrast, Regional Office staff generally stated that the most
important PM function is to be a focal point for information on activities related
to a specific plant in support of Region-based oversight of operating reactors.
Headquarters staff also stated that while processing licensing actions and
activities is the most important function of the PM position, other activities
assigned to PMs may be reducing PM effectiveness and resulting in increases
in the licensing action backlog. For example, the licensing action inventory
increased 10 percent in FY 1996 and 15 percent in FY 1997. In addition,
both managers and staff expressed concerns that PMs are being asked to give
priority to processing non-safety-related controlled correspondence, petitions
from the public,(4) and recent increased emphasis
on PMs updating technical documents such as Final Safety Analysis Reports (FSAR).
We analyzed PM time charges during FY 1997 and found wide ranges in the amount
of time charged to various functions performed by lead PMs. As illustrated in
Table 1, we found an uneven distribution of time that PMs spent on activities
senior managers deem important, such as licensing, where the actual amount of
time PMs charged varied from 12.1 percent to 84.3 percent.
Table 1: Variation in Lead PM Time Charges (excluding absence)
Percenta
Hours
Description
Min
Max
Avg
StdDevb
Min
Max
Avg
StdDev
Licensing Actions and Activity
12.1
84.3
39.5
15.8
231.0
1911.0
681.4
331.2
Focal Point
6.2
71.2
37.0
14.8
86.0
1,503.0
641.7
287.2
Administrative
1.1
46.8
13.6
8.9
23.0
804.0
232.8
157.8
Plant Safety Assessment
0
27.3
7.6
6.2
0
518.0
132.4
110.3
Generic, Non-Docket Related
0
38.2
2.3
5.7
0
701.0
41.7
102.8
aTotals shown are percentages of a PM's total hours
less time charged to absence.
bStandard Deviation provides a measure of the spread or dispersion
of values around the average and is the most useful indicator of variation.
The standard deviations of the time charges, which are large in relation
to the averages, reflect the wide variance in the hours charged to functional
areas across all lead PMs.
Source: OIG analysis of FY 1997 data from WISP for 64 lead PMs (as identified
by OIG).
We believe that the PM function will continue to absorb various unrelated duties
until a clear role is identified and a focus is given to this position. In our
opinion, NRC management needs to: (1) reach a consensus on the expectations
of the PM position, including determining how the position fits into the overall
picture of licensee safety assessment, and (2) communicate the unified expectations
to the staff.
Some PM Activities Need Better Alignment
NRC staff, including PMs, expressed concerns that being responsible for so
many competing tasks may inhibit PMs from performing expected activities to
the best of their abilities. We found inconsistent performances in two activities
PMs are currently responsible for: (1) performance of safety evaluations (SE),
and (2) participation in various functional areas of the SALP process.
Better alignment of the responsibilities in these two areas might enhance PM
effectiveness.
The ADPR organization is responsible for coordinating licensing and technical
review activities, and NRC's Operating Reactor Project Manager's Handbook
indicates that a PM is expected to be able to prepare SE reports. However, we
found management's expectations regarding a PM's performance of SE reviews are
mixed. For example, one senior NRR manager stated that PMs do not perform the
licensing work, rather they "broker the work and lead the team doing the work."
However, another senior manager said the PM function was created to manage the
completion of licensing actions and "personally do about 50 percent of the actions."
PMs said they are not aware of any management expectations on this subject,
so they independently decide whether to perform SEs. Accordingly, we found inconsistencies
among PMs related to this activity. In addition, we believe there are inherent
weaknesses in performing SE reviews in ADPR which are outlined below:
ADPR has responsibility for coordinating the completion of SEs, but PMs
have no delegated authority to ensure the timeliness of SEs being performed
in the Associate Director for Technical Review (ADTR) organization, where
most SE review time is actually accrued. We identified about 200,000 hours
charged to licensing actions and activities by NRR employees in FY 1997
of which only about 14,000 hours were charged by lead PMs for actually performing
a review (not including hours we estimated as needed for a PM to manage
the review process).(5) Technical reviewers
charged more than 120,000 hours for performing reviews in ADTR, which is
already tasked to perform such reviews.
According to the staff we interviewed, the technical capability of PMs
to perform SEs is widely varied. On the other hand, technical reviewers
in ADTR have specific functional expertise that can be maintained through
daily on-the-job learning or easily identified training.
In our opinion, the performance of fairly specific SEs detracts from a PM's
ability and time to focus on the broader issues of a plant's licensing performance
and status, and safety performance. Also, NRR should ensure that management
responsibilities are restricted to as few reporting lines as possible to best
exercise quality control. Performing SEs within a single office would increase
the effectiveness of this important quality control and assure isolation of
responsibility. However, because of the role PMs play in plant assessment and
their need to maintain an overall awareness of plant activities and plant license
conditions, it is important that PMs are involved in setting the priority and
completion date goals for licensing actions and activities. As such, we believe
PMs are currently the appropriate focal point for the flow of such requests
into and out of NRR.
Another PM activity that we found may be performed more efficiently with better
alignment is the PM's role in the SALP process. NRC is currently reviewing the
licensee performance assessment area, including SALP. However, at this time,
the SALP process remains in effect and any changes to this or other agency assessment
methods are undetermined.
NRC uses the SALP process to articulate its observations and insights on a
licensee's safety performance to licensee management and to the public. The
PM's role in the process is primarily to support the NRR SALP Board(6)
members as a coordinator for the functional areas assigned to NRR.
SALP reports generally consist of the assessment of four functional areas for
operating reactors: (1) Plant Operations, (2) Maintenance, (3) Engineering,
and (4) Plant Support. Regional Office officials determine which of these
functional areas NRR will coordinate. However, we found the area designations
to NRR are not consistent across Regions, and we found no documented rationale
for the functional assignments. For example, NRR PDs monitoring plants in the
four Regions have four different SALP responsibilities and the assignments from
any Region can change from SALP to SALP. NRC staff, including PMs, told us that
unless PMs had prior work experience in the designated SALP area, for instance
as a resident inspector, they would typically have to contact resident inspectors
and/or Regional Office staff to obtain the additional information needed to
provide input. Senior NRC officials and PMs indicated that this additional effort
would essentially be duplicating information that already exists in each Region.
We believe the role and responsibilities of the PMs should be used to identify
the most appropriate input area to a SALP, or any other performance assessment
report, and that area should be consistent for all Project Directorates and
Regions. Based on the current role of PMs, we agree with NRC staff who told
us PMs would most appropriately participate in the SALP, or other safety assessments,
by commenting on a licensee's performance in licensing.(7)
The SALP location designated for commenting on a licensee's licensing performance
is the Engineering module. NRR officials told us that they are currently making
an effort to increase the amount of information that PMs place on the docket
in regard to license activity, which will allow such material to be included
in future SALP reports. We encourage NRR to continue this effort.
Improvements needed in training oversight
We reviewed NRR's current training requirements for PMs and discussed the training
program with senior NRC officials and PMs. Although NRR has established training
requirements, we found that management views on PM training differ and oversight
of PMs' training is lacking and needs improvement.
NRR's training requirements for PMs are detailed in a May 1989 memorandum to
NRR staff. The memorandum states that supervisors are to identify courses each
PM should take to meet the job requirements and those courses become the formal
training plan for that employee. Furthermore, NRC Management Directive 10.77,
Employee Development and Training, dated August 27, 1996, directs
supervisors to meet at least semi-annually with staff members to ensure that
all have completed the training specified in formal training and qualification
programs. However, PMs told us that their supervisors had not established training
plans as required in the 1989 memorandum, nor had any PMs been requested to
develop their own plans. We also learned that most of the PDs do not conduct
the required semi-annual meetings with their PMs to discuss training needs and
that they rely on the PMs to request desired training classes.
The 1989 memo mandates that PMs receive a minimum amount of technical training
for each type of plant they are assigned to. A senior NRR official we spoke
with emphasized that job assignments should still be matched to the type of
plants for which PMs have received training; for example, a Pressurized Water
Reactor-trained PM should not be assigned to a Boiling Water Reactor plant.
However, in February 1997, an ADPR Division reviewed the training records for
its PMs to determine if PMs were meeting the technical training requirements
of the position. The review found that about 80 percent of the PMs needed additional
training to comply with NRR's 1989 guidance. The review also found that 15 percent
of the PMs had no technical training related to the type of plant for which
they were the lead PM. In addition, our review found that other ADPR PMs have
not received formal training on the type of plants to which they are assigned.
Furthermore, NRR managers stated, and the 1989 memorandum provides, that PMs
should periodically receive refresher training on their assigned plant types.
However, none of the PMs we interviewed had taken refresher courses of any type.
The NRC's Operating Reactor Project Manager's Handbook indicates that
a PM must have a high level of technical knowledge to perform and manage quality
technical reviews. PMs participate in and lead technical discussions, formulate
overall technical judgments, and write technical reports. PMs must be able to
correlate the many facets of nuclear and conventional technology that may influence
the operation and design of a nuclear facility.
Senior NRR officials told us that training is an important component of PMs'
ability to perform their jobs and that they are committed to the development
of a technical training program to ensure that all PMs receive the training
necessary to meet established requirements. In fact, a formal PM qualifications
system, similar to the NRC Inspector Qualification program, is under consideration
and favored by many of the staff we spoke with. However, although PMs and PDs
we interviewed generally agreed that technical training is important, several
said PMs cannot afford the time away from the office because the work backlogs
during their absence. On occasion, PMs have rescheduled or canceled training
due to more pressing work assignments. Conversely, a few PMs and PDs told us
that formal training may not even be necessary, as PMs have gained technical
knowledge and expertise through years of on-the-job training (OJT).
While we acknowledge that PMs benefit from OJT, we agree with NRC staff who
told us that formal training is needed in addition to OJT, and we do not believe
NRC has assured itself that OJT is a sufficient substitute for formal training.
We also recognize that the outcomes of the JTA and other initiatives may be
used to revise existing training requirements and add newly identified areas
to a formal training program. However, regardless of any changes to the program
that may result from the JTA or other initiatives, management needs to provide
the time and staff support necessary to ensure PMs are adequately trained in
areas identified as critical to the PM's job function.
Recurrent requests add to processing time
NRC staff, including PMs, told us that NRR needs to be more responsive to licensees
and Regional Office staff needs by improving the timeliness of completing licensing
actions and activities. We examined the processing of certain types of licensing
actions as part of our review of factors that impact the effectiveness of PMs.
We found that the recurrent requests for additional information (RAIs) appear
to be the primary impediment to shortening the amount of time it takes to complete
licensing actions and activities.
To augment our review, we extracted FY 1997 data from RITS and WISP to analyze
how Priority 1 and Priority 2 licensing actions and activities moved between
ADPR and ADTR personnel. We also reviewed the pattern of time charges occurring
over the period these actions were in process and found that personnel in both
organizations charged small amounts of time per week over the course of each
review. This resulted in actions taking long periods of time to complete in
comparison with the relatively few hours actually spent performing the reviews,
as illustrated in Table 2 below.
Table 2: Time to Complete Technical Review Requestsa
Type of Request
Priority
Number
Completed
Average Weeks to Complete
Average Hours to Completeb
Average Hours Per Week
License Amendments
1
58
9
94
11
Technical Assistance for a Regional Office
1
20
16
78
5
License Amendments
2
110
24
176
7
Technical Assistance for a Regional Office
2
24
28
47
2
a Totals are adjusted to account
for multi-unit requests where multiple tracking numbers were opened for
what was essentially a single review. All numbers are rounded.
b This category includes all hours worked by all NRR employees
who charged time to the task.
Source: OIG analysis of FY 1997 data from WISP and RITS.
To gain a better understanding of the licensing process, we selected a judgmental
sample of nine Priority 1 license amendment requests and TIAs(8).
We discussed the processing of each of these actions with the technical review
staff and the PM(s) involved and found that the recurrent need to request additional
information impacted the timely processing of each of these actions. That is,
in the reviewer's professional judgment, the original submittal did not contain
sufficient information for the reviewer to perform the evaluation. To obtain
the additional information deemed necessary by the applicable reviewer, a request,
such as an RAI, was issued to the appropriate licensee or Regional Office staff.
The PMs and technical reviewers told us that work virtually stops on actions
pending receipt of each RAI response, which can take a week to several months,
impacting the PMs' effectiveness in scheduling and performing the licensing
portion of their jobs.
PMs told us that they generally perform reviews having historical precedents;
however, they stated that approximately 50 percent or more of even those reviews
required RAIs. On the other hand, technical reviewers said that one or more
RAIs are required for nearly every request they receive in ADTR. Staff felt
that NRC's more conservative approach over the past few years has resulted in
an increase in formal RAIs that previously might have been requested verbally.
Staff also provided these additional reasons for RAIs:
The quality of submittals varies among licensees; some licensees submit
very complete requests and others frequently submit insufficient requests.
For example, some concern was expressed that licensees may submit "skeleton"
requests because they want NRC, in an RAI, to provide them with specific
information needed to complete the review;
Licensees are being conservative in submitting information to NRC that
may be docketed and become accessible to Public Utility Commissions and/or
subject to additional NRC regulation;
Licensees may not have the necessary level of technical expertise in a
specific area; and,
Two parties dealing with complex issues have difficulty anticipating what
the other needs for such a review without seeing the request in written
form.
PMs and ADTR staff generally stated that RAIs did not take any significant
amount of time to prepare; therefore, gains in this area would primarily be
in shortening the length of processing time rather than in significant reductions
in staff hours consumed. Senior managers told us that NRR may shortly conduct
its own review of this area, either internally or through the contracted assessment.
We believe that identifying ways to alleviate the need for recurrent RAIs will
improve the timeliness of processing licensing actions and activities, thereby
creating an environment where PMs can more effectively perform their licensing
role and NRR can be more responsive to the needs of licensees and Regional Office
staff.
CONCLUSION
From our discussions with NRC senior officials and other staff, we found that
the expectations of the PM position vary considerably. We also found wide variance
among PMs in the amounts of time charged to those activities that management
considered most important. The diverse expectations of agency officials indicate
a lack of clarity in PM position priorities and imply that there are unclear
responsibilities for performing activities.
As a result of our review of factors affecting the PM workload, we believe
that a lack of clearly defined expectations has led to inconsistencies in the
performance of two current PM activities: performing safety evaluations, and
providing input to various sections of the SALP reports. In our opinion, the
responsibility for performing all SEs should reside within the ADTR organization.
We also believe that the PM's role in the SALP process lacks focus and consistency.
For any position in NRC that has a role in the safety assessment of a nuclear
power plant, the need for clear identification and justification of that position's
input is critical to its value. We believe PMs would most appropriately participate
in the SALP, or other safety assessments, by commenting on a licensee's performance
in licensing.
In addition, although NRC has identified the types of training needed by PMs
and issued related guidance, we found that this guidance is not being followed
and that management support and attention to PM training is lacking.
Finally, our review of how licensing actions are processed identified RAIs
as the primary impediment to the completion of licensing actions.
RECOMMENDATIONS
We recognize that NRC may, as a result of its current agency-wide initiative
to implement a performance management process, conduct a "top down" assessment
of all the programs and activities in NRR. That assessment would examine NRR's
current programs and activities to determine whether they achieve their desired
purpose in an efficient and effective manner and whether they should be continued,
redesigned, or sunset. However, the performance of that assessment is uncertain
at this date. Therefore, to ensure that NRR's Project Manager position has a
clear role and focus, we recommend that the agency:
(1) Re-evaluate and clearly define expectations and responsibilities, including
participation in the licensee assessment process, for Project Managers based
on how such a position fits into NRR's mission to ensure public health and safety
through licensing and inspection activities, and communicate the expectations
to Headquarters and Regional Office staff.
(2) Follow training guidance and ensure Project Managers are adequately trained
in critical job functions. Take appropriate action to assure adequate management
support and oversight of the current training requirements for Project Managers,
or the requirements as modified by the JTA and other on-going initiatives.
(3) Relocate responsibility for the performance of all technical reviews to
ADTR and establish Project Managers as the focal point for movement of those
reviews into and out of NRR.
Additionally, NRC might identify ways to improve the effectiveness of PMs in
their licensing role by examining factors causing recurrent Requests for Additional
Information.
AGENCY COMMENTS
The Deputy Executive Director for Regulatory Programs stated that NRC staff
generally agree with the findings and recommendations of this report, but disagreed
with our recommendation to relocate responsibility for the performance of all
technical reviews to ADTR and establish PMs as the focal point for the movement
of those reviews into and out of NRR. His comments are contained in Appendix
IV. We have incorporated editorial changes in our final report where appropriate.
Subsequent to receiving NRC's comments, we met with senior agency staff, including
the Deputy Executive Director for Regulatory Programs. Staff agreed that measures
are needed to correct the weaknesses we reported, and stated they plan to initiate
several actions to improve the quality of work and productivity by examining
ways to reduce inefficiencies in work flow between ADPR and ADTR. NRC staff
agreed to provide OIG with schedules for implementing these actions. Given the
need for and importance of improving NRR's regulatory processes, we plan to
closely monitor the agency's progress in implementing these initiatives.
OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of our review were to (1) identify and examine the role of Project
Managers in the Office of Nuclear Reactor Regulation (NRR), and (2) examine
factors affecting the workload of Project Managers.
To accomplish our objectives, we interviewed senior U.S. Nuclear Regulatory
Commission (NRC) officials and staff in NRR, including Project Managers and
technical reviewers, as well as two NRC Deputy Executive Directors for Operations.
We also interviewed Regional and Deputy Regional Administrators, Division and
Deputy Division Directors, Resident Inspectors, and other staff members in Regions
I and IV. In addition, we met with representatives of the Nuclear Energy Institute,
the nuclear industry's Washington-based policy institute.
We conducted data analysis on information from the agency's Workload Information
and Scheduling Program (WISP) and Regulatory Information Tracking System (RITS).
This information encompassed the time charged by NRR staff, including Project
Managers, to various activities during fiscal year 1997 (weekending October 5,
1996, through weekending September 27, 1997). We performed a quality review
of WISP data on a statistical sample.(9) Based
on work performed in an earlier Office of the Inspector General report,(10)
we determined that data from RITS was reliable.
We reviewed relevant management controls, including various policies and procedures,
NRC Management Directives, the NRC's Operating Reactor Project Manager's
Handbook, and other guidance documents in addition to discussing controls
with NRC management officials.
We conducted our audit from July 1997 through April 1998 in accordance with
generally accepted Government auditing standards.
ACRONYMS
ADPR
Associate Director for Projects organization
ADTR
Associate Director for Technical Review organization
FSAR
Final Safety Analysis Report
FY
Fiscal Year
JTA
Job Task and Functional Analysis
NRC
Nuclear Regulatory Commission
NRR
Office of Nuclear Reactor Regulation
OI
Office of the Inspector General
OJT
On-the-Job Training
PD
Project Directors
PM
Project Manager
RAI
Request for Additional Information
RITS
Regulatory Information Tracking System
SALP
Systematic Assessment of Licensee Performance
SE
Safety Evaluation
TIA
Task Interface Agreements
WISP
Workload Information and Scheduling Program
MAJOR CONTRIBUTORS TO THIS REPORT
William D. McDowell
Team Leader
Robert W. Moody
Senior Auditor
Catherine M. Colleli
Management Analyst
GLOSSARY: OFFICE OF THE INSPECTOR GENERAL PRODUCTS
Investigative
1. INVESTIGATIVE REPORT - WHITE COVER
An Investigative Report documents pertinent facts of a case and describes available
evidence relevant to allegations against individuals, including aspects of an
allegation not substantiated. Investigative reports do not recommend disciplinary
action against individual employees. Investigative reports are sensitive documents
and contain information subject to the Privacy Act restrictions. Reports are
given to officials and managers who have a need to know in order to properly
determine whether administrative action is warranted. The agency is expected
to advise the OIG within 90 days of receiving the investigative report as to
what disciplinary or other action has been taken in response to investigative
report findings.
2. EVENT INQUIRY - GREEN COVER
The Event Inquiry is an investigative product that documents the examination
of events or agency actions that do not focus specifically on individual misconduct.
These reports identify institutional weaknesses that led to or allowed a problem
to occur. The agency is requested to advise the OIG of managerial initiatives
taken in response to issues identified in these reports but tracking its recommendations
is not required.
3. MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate
correction of problems and to avoid similar issues in the future. Agency tracking
of recommendations is not required.
Audit
4. AUDIT REPORT - BLUE COVER
An Audit Report is the documentation of the review, recommendations, and findings
resulting from an objective assessment of a program, function, or activity.
Audits follow a defined procedure that allows for agency review and comment
on draft audit reports. The audit results are also reported in the OIG's "Semiannual
Report" to the Congress. Tracking of audit report recommendations and agency
response is required.
5. SPECIAL EVALUATION REPORT - BURGUNDY COVER
A Special Evaluation Report documents the results of short-term, limited assessments.
It provides an initial, quick response to a question or issue, and data to determine
whether an in-depth independent audit should be planned. Agency tracking of
recommendations is not required.
Regulatory
6. REGULATORY COMMENTARY - BROWN COVER
Regulatory Commentary is the review of existing and proposed legislation, regulations,
and policies so as to assist the agency in preventing and detecting fraud, waste,
and abuse in programs and operations. Commentaries cite the IG Act as authority
for the review, state the specific law, regulation or policy examined, pertinent
background information considered and identifies OIG concerns, observations,
and objections. Significant observations regarding action or inaction by the
agency are reported in the OIG Semiannual Report to Congress. Each report indicates
whether a response is required.
1.  "Licensing actions" are those licensee requests,
such as license amendments, reliefs, or exemptions, that require review and
approval by NRC staff before they may be implemented by the licensee. Nearly
every such action involves consideration of the effect of that action on public
health and safety and the environment. In most cases, this consideration involves
preparation of a documented evaluation of those effects known as a safety evaluation.
2.  "Licensing activities" are reviews or other
tasks that NRC performs for itself, such as answering Technical Information
Assistance requests from Regional Offices and reviewing the responses to Generic
Letters and Bulletins.
3.  NRR's Workload Information and Scheduling Program (WISP)
and NRC's Regulatory Information Tracking System (RITS), which is the agency's
main system for tracking employee time charges for billing purposes. Employees
enter time charges in RITS on a weekly basis for hours worked on various tasks.
These tasks are assigned specific Technical Assignment Control numbers for tracking
purposes.
4.  The amount of time PMs spent in FY 1997 on controlled
correspondence and petitions filed by members of the public under Section 2.206
of NRC's regulations, was directly related to the plant a PM was assigned and
varies considerably. Some PMs had no such activities.
5.  We identified a review as being performed by a PM if
a PM charged more than 90 percent of the hours related to that review. Of about
3,400 OIG-identified licensing actions and activities worked on during FY 1997,
PMs charged more than 90 percent of the time on about 1,200, requiring an average
of about 21 hours or less each to complete. The balance of the reviews were
done in ADTR and required an average of about 60-100 hours to complete depending
on priority level.
6.  The SALP Board includes SES-level representatives from
the responsible Region and an NRR SES-level manager from ADPR. Regional Administrators
have responsibility for developing and issuing SALP reports.
7.  Particularly, the quality, timeliness, and adequacy
of a licensee's requests for and actions taken related, for example, to license
amendment requests, requests for relief, and requests for exemptions.
8.  Task Interface Agreements (TIA) are Regional Office
requests for Headquarters technical expertise and assistance.
9.  We reviewed a total of 78 records using (1) expected
error rate of 5 percent, (2) confidence level of 90 percent, and (3) upper
error limit of 10 percent. We checked a total of 13 data fields. Those results
indicated that we would have to avoid use of certain WISP data fields and exercise
caution with the use of other fields. We made those adjustments in our work
and informed NRR officials of the results of our quality review.
10.  OIG/96A-09,
September 13, 1996, Review of NRC's Part 170 License Fee Billing System.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees